«%

CERTIFICATE OF SERVICE
I, Shannon Riley, do swear or declare on this date,
December 3, 2020, as required by Supreme Court Rule 29 I
have served the enclosed Supplemental Brief on each party
to the above proceeding by depositing an envelope
containing the above documents in the U.S. mail
properly addressed to each of them and with first-class
postage prepaid.
The names and address of those served are as follows;
The Honorable Clifton Newman, Circuit Court Judge,
Aiken County Court of Common Pleas, POB 583, Aiken, SC
29802, Dionne Carroll, Esq.
Pendleton St N.W., Aiken, SC

Carroll Law Firm, 107
29801

I declare under penalty of perjuty that the foregoing
is true and correct.
Executed on 12/3/20.

Shannon Riley
Petitioner, pro se
1368 Smiths Lawn
Aiken, SC 29801
(815)' 814-5179
shannon®infinitysporthorse.com

